 

 

In the Supreme Court of the United States

JOHN SILVIA, JR.,
Petitioner
v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(7), John Silvia, Jr. asks
leave to file the accompanying Petition for Writ of Certiorari to the Supreme
Court of the United States without prepayment of costs and to proceed in
forma pauperis. Petitioner was represented by counsel appointed under the
Criminal Justice Act, 18 U.S.C. ยง 3006A(b) and (c), on appeal to the United
States Court of Appeals for the First Circuit.

August 11, 2017
/s/ Henry B. Brennan

HENRY B. BRENNAN

20 Park Plaza, Suite 400
Boston, Massachusetts 02116
617-201-5977
hb@hbjustice.com

Attorney for John Silvia, Jr.
